         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Inspection Report

Concerns with Consulting Contract
Administration at Various
Department Sites




DOE/IG-0889                               June 2013
                                      Department of Energy
                                         Washington, DC 20585
                                                 June 7, 2013


MEMORANDUM FOR THE SECRETARY OF ENERGY


FROM:                        Gregory H. Friedman
                             Inspector General

SUBJECT:                     INFORMATION: Inspection Report on "Concerns with Consulting
                             Contract Administration at Various Department Sites"

INTRODUCTION AND OBJECTIVE

The mission of the Department of Energy (Department) is to ensure America's national security
and prosperity by addressing its energy, environmental, and nuclear weapons challenges through
transformative science and technology solutions. The work of the Department is executed at a
number of contractor-operated facilities, including 17 pre-eminent national laboratories.
Department contractors frequently use consultants that are deemed to possess unique capabilities
to assist in advancing their various missions.

The National Nuclear Security Administration (NNSA) requested that we conduct a review to
determine whether a consulting agreement awarded to Heather Wilson and Company, LLC
(HWC) 1, by Los Alamos National Laboratory (Los Alamos) was appropriately administered and
managed. Specifically, we were asked to determine whether: (1) work products (deliverables)
were produced in return for monthly payments to HWC of $10,000; (2) invoices included
itemized charges, as required by the agreement; (3) there was overlap between the services
provided and work products produced by HWC on consulting agreements awarded by Sandia
National Laboratories (Sandia), Los Alamos, Oak Ridge National Laboratory (Oak Ridge) and
the Nevada National Security Site (Nevada); and (4) an NNSA Contracting Officer was
subjected to "pressure" when Los Alamos National Security, LLC (LANS), the Management and
Operating contractor for Los Alamos, requested authorization to enter into an agreement with
HWC. This inspection was initiated to evaluate these matters.

RESULTS OF INSPECTION

Our inspection identified serious concerns with the administration and management of
agreements with HWC for advice and consultation provided to senior managers at four
Department contractor-operated sites. In fact, our testing revealed that the four facility
contractors paid approximately $450,000 to HWC even though they did not receive evidence that
work performed under the agreements had been completed. These payments were fully
reimbursed by the Government.


1
 For ease of reference, all consulting agreements addressed in this report between Heather Wilson and Company,
LLC or directly with that company's principal, are referred to as agreements with HWC.
                                                           2

                                            Deliverables and Invoices

Under the Federal Acquisition Regulation (FAR), which was incorporated into the Management
and Operating contracts at the four facilities, fees for services rendered are allowable only when
supported by evidence of the nature and scope of the service furnished. Examples of such
evidence are consultant work products and invoices with sufficient detail regarding the time
expended and nature of the actual services provided.

In spite of these requirements, we found that the Department's facility contractors failed to
include, or did not enforce, terms in the consulting agreements that would have required HWC to
provide details regarding the nature and scope of work performed prior to payment. Instead, we
discovered that the contractors made payments to HWC based on invoices that lacked the detail
necessary to support that the agreed-to services had been provided. Contractor officials at
Sandia and Los Alamos asserted that some value had been received for the services rendered. To
that end, contractor officials at Sandia and Los Alamos provided information to us that supported
at least some consultant activity for most of the invoiced work periods we reviewed. In our
judgment, the information provided did not meet even minimum standards for satisfying FAR
requirements. Further, Nevada and Oak Ridge told us that there were no deliverables associated
with the payments made to HWC.

Consequently, we were unable to verify that all agreed-to services had been provided by HWC.
As such, we questioned the allowability of the about $450,000 in payments by the four
Department contractors. Specifically:

       •   23 payments totaling $226,378 made by Sandia between January 2009 and March 2011;

       •   19 payments totaling $195,718 made by Los Alamos between August 2009 and February
           2011; and

       •   Payments totaling approximately $30,000 made by Nevada and Oak Ridge.

We also noted that the services of HWC at both Sandia and Los Alamos were procured through
consulting arrangements that were based on an agreement originally developed by Sandia. The
original agreement specifically prohibited activity related to "business development." Despite
that prohibition, however, we found that these types of activities were actually one of the
purposes of the consulting activities. In fact, a senior Los Alamos official acknowledged that
Los Alamos desired to use HWC's services, in part, to increase work-for-others activities.
Specifically, he told us that: (i) Los Alamos had made a strategic decision to increase the market
share of work involving the Department of Defense and the Intelligence Community, and (ii) the
Los Alamos Director believed the expertise of HWC could help with that initiative. Federal
officials at the Sandia Field Office 2 discovered and made us aware that Sandia had sanctioned
and paid HWC for a number of activities that they considered to be prohibited under the terms of
its agreement. These officials learned of these problems when they initiated a review of the
issues we identified during our inspection field work.




2
    During the course of our inspection, the designation for an NNSA "Site Office" was changed to "Field Office."
                                                 3

We noted that concerns regarding prohibited activities by HWC had been voiced early on by
Federal officials. On March 8, 2010, the NNSA Sandia Field Office Manager specifically
addressed the issue of prohibited activities in formal correspondence with Sandia. She advised
contractor officials that an inference could be drawn from the stated need contained in the
Sandia-prepared sole-source justification for HWC services, that the agreement would be used
for the purpose of developing new business for Sandia in the Intelligence and Cyber arenas. The
Sandia Field Office Manager's March 8 memorandum also indicated that these activities were
specifically prohibited and denied Sandia's initial request for the arrangement. In response to the
Sandia Field Office Manager's concerns and to secure approval to extend the period of
performance for an existing agreement with HWC, Sandia modified the language in its sole-
source justification to eliminate the concern raised in the March 8 memorandum. The Office of
Inspector General is continuing its review of these matters.

                                Duplicative Services Allegations

Due to the absence of detailed evidence of the actual services provided by HWC, we could not
determine whether those services were duplicative in nature at the four Department facilities.

                         Alleged Pressure on NNSA Contracting Official

As outlined in this report, the circumstances surrounding the award and execution of the HWC
consulting agreements were unusual and, in some instances, highly irregular. These factors
added to the relevance and potential importance of concerns about "pressure" placed on an
NNSA contracting officer during approval of the HWC consulting agreements. As part of our
fact gathering process, we interviewed the NNSA officials involved, including the contracting
officer. However, we were unable to identify any evidence that the contracting officer was
subjected to "pressure" during the approval of the HWC agreement at Los Alamos.

                             Contributing Factors and Path Forward

The issues identified in this report occurred because contractor officials responsible for crafting
and administering the consulting agreements either did not incorporate, or failed to enforce, the
requirements of the FAR into the agreements with HWC. We also determined that contractor
officials failed to exercise due diligence to ensure that the government received value for the
payments made to HWC. In addition, considering the high profile nature of these agreements
and the fact that contractor officials had been warned by Federal managers about complying with
FAR requirements, Federal officials could have followed up to ensure previously identified
problems were corrected, but did not do so. Notwithstanding, contractors have a responsibility
to adhere to the terms of their contracts, including FAR requirements, and to follow direction
provided by Federal contracting officials. In particular:

    •   Contracting officials at Sandia did not include requirements for specific deliverables or
        detailed invoices in the HWC consulting agreement or in task orders issued monthly.
        Even when Federal officials at the Sandia Field Office identified the lack of deliverables
        as a concern and directed inclusion of specific level of effort and deliverables in the task
        orders, contractor officials failed to fully comply with the direction. Federal officials
        could have followed up to ensure compliance with their direction, but did not do so.
                                                 4

    •   At Los Alamos, the HWC tasking document included formal requirements that the
        consulting firm submit monthly billings for the services performed, including a
        breakdown of the specific activities performed. There was no evidence, however, that
        this requirement was enforced by the contractor official responsible for monitoring
        performance under the consultant agreement. That official noted that there was
        extensive conversation with HWC early in the term of the agreement regarding hours
        worked. However, he acknowledged that he failed to maintain this discipline and ensure
        that information was available to substantiate that services were rendered, as required.

Concerns with the nature and mechanisms of the relationship between Sandia, Los Alamos and
HWC were not limited to Federal officials. We found, for example, that a senior Los Alamos
management official was informed of a number of issues and risks with the HWC agreement as
early as March 2009. That official was advised that the consulting agreement was risky because
it contained a vague statement of work, there was inadequate data to justify that the price for the
services was fair and reasonable, and there was a lack of specificity for the level of effort
required. The official was also advised that because of these issues, there was potential for
disapproval of the agreement by Federal officials, disallowance of costs incurred, and adverse
publicity. That official told us that he was unaware of what action had been taken to address
these concerns.

Also troubling, we determined that there was uncertainty among various site contractor officials
regarding the intent and implementation of the deliverable and invoice requirements in the FAR.
We found this hard to imagine given the prominence of the FAR and the history of extensive
subcontracting activities of the facility operating contractors involved. Such claimed uncertainty
relating to Los Alamos was particularly unsettling given the fact that the senior Los Alamos
official received very specific warnings of the potential pitfalls associated with the agreement
with HWC.

We made recommendations designed to assist management with ensuring that the intent of the
requirements of FAR 31.205-33, Professional and consultant service costs, are consistently
understood and implemented across the complex, and that awareness of prohibitions against
business development activities by contractors is improved. We also recommended that a
determination be made with regard to the allowability of the costs associated with consulting
agreements involving HWC, to include the recovery of any costs determined to be unallowable.
Finally, we concluded that these matters should be considered in the contractor fee
determinations, even if retroactive actions are necessary.

At the conclusion of our inspection, we briefed Department management on the results of our
inspection. Subsequently, both the Sandia and Los Alamos Field Offices issued a Notice of
Intent to Disallow Cost associated with agreements awarded to HWC by their respective site
contractors. We also briefed Federal management officials at the Nevada Field Office and Oak
Ridge on our results.

MANAGEMENT AND INSPECTOR COMMENTS

Management generally agreed with the report's findings and recommendations and indicated it
was in the process of implementing or completing corrective actions. Management indicated that
the Department has already recovered $442,877 from its contractors of the approximately
                                               5


$464,203 paid to HWC, and is reviewing the allowability of the additional amounts. Notably,
management committed to conduct a review to determine whether revocation of previously
awarded award fee was appropriate.

We found management's comments and planned corrective actions to be generally responsive to
our report findings and recommendations. Because of the overt nature of Sandia and Los
Alamos' actions and their failure to fully comply with Federal direction in this case, we also
suggest that the Department consider whether penalties available under Department of Energy
Acquisition Regulation 970.5242-1, Penalties for unallowable costs, should be assessed.

Management's formal comments are included in Appendix 2.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Acting Chief of Staff
    General Counsel
    Director, Office of Science
    Director, Office of Management
REPORT ON CONCERNS WITH CONSULTING CONTRACT
ADMINISTRATION AT VARIOUS DEPARTMENT SITES

TABLE OF
CONTENTS


Consulting Contract Administration

Details of Finding                            1

Recommendations                               9

Management and Inspector Comments             10


Appendices

1.   Objective, Scope and Methodology         11

2.   Management Comments                      13
CONCERNS WITH CONSULTING CONTRACT ADMINISTRATION AT
VARIOUS DEPARTMENT SITES

CONSULTING CONTRACT ADMINISTRATION

Our inspection identified a number of issues regarding the deliverables and invoices necessary to
support the approximately $450,000 paid to Heather Wilson and Company, LLC (HWC) 1 for
advice and consultation provided to senior managers at four Department contractor-operated
sites.

Federal Acquisition Regulation (FAR) 31.205-33, Professional and consultant service costs,
Section (f), states that fees for services rendered are allowable only when supported by evidence
of the nature and scope of the service furnished. Evidence necessary to determine that work
performed is proper and does not violate law or regulation includes: Section (f) (2), Invoices or
billings submitted by consultants, including sufficient detail as to the time expended and nature
of the actual services provided; and Section (f) (3), Consultants' work products and related
documents, such as trip reports indicating persons visited and subjects discussed, meeting
minutes, and collateral memoranda and reports.

We noted that these requirements were incorporated into the Management and Operating
contracts through the Department of Energy Acquisition Regulation (DEAR) 970.5232-2,
Payments and advances. However, we found that responsible site contractor officials either did
not incorporate the requirements of the FAR into the agreements with HWC and/or failed to
exercise due diligence to ensure they obtained the required evidence necessary to support the
payments for the services rendered.

                                     Sandia Deliverables and Invoices

We determined that between January 2009 and March 2011, Sandia National Laboratories
(Sandia) authorized 23 payments totaling $226,378 for services rendered by HWC without the
evidence of deliverables and detailed invoices to support the allowability of these payments.

Sandia entered into a Consulting Agreement with HWC in January 2009 and then converted this
agreement into a Contract Purchase Agreement in March of 2009. Under these agreements,
HWC was to advise Sandia leadership on, among other things, corporate strategic objectives, the
business environment within which Sandia programs operate, and operational constraints. In
executing this Contract Purchase Agreement, Sandia issued individual Firm-Fixed-Price task
orders to HWC monthly for a minimum of 50 hours per month, at a cost of $10,000 per month.
However, we determined that HWC was paid the $10,000 per month without submitting
deliverables to the designated Sandia Delegated Representatives (SDRs).

While Sandia broadly outlined the tasks to be performed in its Contract Purchase Agreement
with HWC, it did not initially include requirements for specific deliverables. Our review found
that from March 2009 until May 2010, there was no reference to deliverables in the


1
 For ease of reference, all consulting agreements addressed in this report between Heather Wilson and Company,
LLC or directly with that company's principal, are referred to as agreements with HWC.

Page 1                                                                                    Details of Finding
Contract Purchase Agreement. In April 2010, the Sandia Field Office 2 raised concerns regarding
the absence of specific requirements for deliverables and directed Sandia to resolve the issue. In
response, in May 2010, Sandia modified the Contract Purchase Agreement to include a specific
requirement for deliverables, stating that:

        Task Orders shall contain a requirement for a deliverable such as a Progress Report or
        statement of completion of work for the task order, and indication of which tasks are
        ongoing, and what progress has been made on the ongoing tasks.

In spite of this direction and the Sandia Field Office's previously expressed concerns with the
HWC agreement, we noted that the task orders issued under the Contract Purchase Agreement
contained significant omissions/deficiencies. First and foremost, we found that the language
regarding deliverables incorporated in the Contract Purchase Agreement was never included in
any of the subsequently issued task orders. We also observed that task orders did not sufficiently
describe work assignments. Specifically, even though task orders were issued on a monthly
basis, several task orders included language that gave exactly the same direction to HWC.
Symptomatic of the lack of specificity in the task orders, the SDR responsible for accepting
deliverables and reviewing invoices told us that there were no reports or deliverables associated
with the HWC agreements. The SDR indicated that the process to confirm that HWC's tasks
were completed was informal, and that the SDR would occasionally have conversations or
receive e-mails regarding the activities of HWC at Sandia.

Similar to the issue with the lack of deliverables, we determined that responsible Sandia
contractor officials did not incorporate the invoice requirements of the FAR into the Contract
Purchase Agreement with HWC. As a consequence, none of the 23 invoices submitted by HWC
contained details as to the time expended and nature of the actual services provided as required
by the FAR. For example, a typical invoice would only include language such as "Consulting
services for 11/1/10 – 11/30/10" at a cost of $10,000 and a breakdown of any specific costs
associated with travel for that month.

The SDRs with whom we discussed these issues were unable to provide evidence of deliverables
or documentation showing that the minimum 50 hours per month of services were rendered.
Further, we found that the relevant contract file did not contain information on deliverables. In
an effort to account for activity under the Task Orders, Sandia conducted a search for evidence
of the services provided by HWC and developed an after-the-fact schedule of activities. We
noted that the schedule showed the hours that HWC spent on activities for each month of the
Contract Purchase Agreement. Examples of such activities included meetings with Sandia
executives, participation on advisory panels, and unspecified meetings in the Washington, DC
area. Sandia, however, did not present us with direct evidence and, as such, this information was
not sufficient to support the payments made to HWC.




2
    During the course of our inspection, the designation for an NNSA "Site Office" was changed to "Field Office."

Page 2                                                                                        Details of Finding
In reviewing correspondence between the Sandia Field Office and Sandia contracting officials in
April 2010 concerning requirements for details regarding services rendered, we noted that Sandia
took the position that time records were not required because the task orders were Firm-Fixed-
Price. Also, when the Sandia Field Office questioned the type of transaction controls
implemented by Sandia to ensure the minimum of 50 hours per month were provided, Sandia
indicated that it was confident that the minimum hours were being performed because the line
customers were assigning and monitoring tasks and performance. However, during our
inspection, we found no documentation of this monitoring. To the contrary, the Sandia official
responsible for monitoring the task orders with HWC told us that the process for ensuring that
work was performed as required was informal and included no reports or deliverables. We
further noted that a Sandia Field Office official commented that this seemed to indicate that
Sandia was paying HWC a retainer fee for no specified service or tasks.

The issues regarding Sandia's inability to substantiate that it received value for payments made to
HWC occurred because Sandia contractor officials did not initially require that the agreement
comply with FAR requirements and subsequently failed to adequately respond to the Sandia
Field Office's directions regarding the agreement. As noted previously, Sandia never included
deliverables or requirements for detailed invoices in the HWC consulting agreement or in task
orders issued monthly. Even when Federal officials at the Sandia Field Office identified the lack
of deliverables as a concern and directed inclusion of specific deliverables in the task orders,
contractor officials failed to fully comply with the direction. Considering the high profile nature
of this agreement, Federal officials could have followed up to ensure compliance with their
direction, but did not do so. Notwithstanding, Sandia has a responsibility to adhere to the terms
of its contract, including FAR requirements, and to follow direction provided by Federal
contracting officials.

A Sandia official made a number of statements that, in our judgment, were intended to justify
actions taken related to the management and administration of the HWC consultant agreement.
For example, the Sandia official who participated in revising the language requiring deliverables
under the Contract Purchase Agreement with HWC told us that the statement of work for each
new task issued and agreed upon formed the basis for the required "Progress Reports." This
official also attempted to justify the terms of the HWC agreement by noting that, at Sandia, many
consultant type agreements do not involve any written deliverables other than the time record of
hours of service performed. However, in this unique situation, we were told that in lieu of a time
record, which would have been the more traditional approach, the types of records such as the
statements of work and e-mails were sufficient to provide the evidence of HWC's successful
completion of tasks.

While the statement that many Sandia consulting agreements are vague as to specific
deliverables was in itself disturbing, we found the remaining assertions highly questionable. In
particular, the statement that a task order, standing alone without evidence of completion, is
sufficient to demonstrate that a task had been successfully completed, in our opinion, turns logic
on its head. On a final note regarding Sandia's handling of the agreement with HWC, we
discovered internal correspondence that reveals how, at least some, Sandia officials viewed this
particular consulting agreement. Sandia officials noted in internal correspondence in



Page 3                                                                         Details of Finding
November 2009 that the HWC arrangement needed to be considered a "consulting agreement"
for the purposes of reporting to the National Nuclear Security Administration (NNSA). Most
importantly, the Sandia official emphasized the point that the arrangement with HWC was
unusual, stating, "We don't do business with anyone else like this and would prefer that this
contract go away." As a result of the weaknesses identified at Sandia, the evidence of the nature
and scope of the services furnished is significantly lacking and, thus, we consider the fees paid to
HWC as questioned costs. We believe that a determination needs to be made as to whether the
fees paid to HWC by Sandia are allowable per the requirements of the FAR and the Management
and Operating contract.

                                  Los Alamos Deliverables and Invoices

Similar to the conditions we observed at Sandia, we found that, between August 2009 and
February 2011, Los Alamos National Laboratory (Los Alamos) authorized 19 payments totaling
$195,718 for the services of HWC without evidence of deliverables and detailed invoices to
support the allowability of these payments.

We noted that, in August 2009, Los Alamos entered into an agreement with HWC. This
agreement was embodied in a single task order issued under the terms, conditions and authority
of the Sandia Contract Purchase Agreement. In this agreement, HWC was required to provide,
among other things, advice and consultation to senior management on the strategic direction of
threat reduction programs at Los Alamos, as well as on how the Laboratory may better position
itself to assist with new technologies in the area of nuclear deterrence. As with Sandia, the task
order also contained a requirement that HWC complete a minimum of 50 hours per month at a
cost of $10,000 per month.

While we noted some early attempts to establish specific deliverables for the HWC task
assignment, such specificity was never included in the final statement of work. In particular, we
noted that the draft statement of work included a section entitled "Deliverables," which stated
that:

    The deliverables the Subcontractor shall provide will vary based on the scope of the
    tasking by [Los Alamos]. Deliverables provided may be in the form of oral advice and
    assistance; attendance at a meeting; a white paper; or other forms of deliverables as
    appropriate pursuant to the [Los Alamos] request for assistance. The Subcontractor
    will periodically (but no less than once a quarter) update the [Los Alamos] Director, the
    Principal Associate Laboratory Director for Weapons Programs, and the Principal
    Associate Laboratory Director for Global Security, individually or separately, with a
    briefing on the assignments and activities performed under this subcontract.

We found, however, that this language was not included in the final statement of work and
deliverable requirements were never created. The language was deleted from the final task order
even though a Los Alamos contracting official informed the NNSA Contracting Officer that
deliverables would be established in individual task assignments. When we asked for the




Page 4                                                                          Details of Finding
specific monthly tasks from August 2009 to February 2011, Los Alamos was not able to provide
any documentation showing what tasks and activities HWC was directed or scheduled to perform
on a monthly basis.

Similar to our findings at Sandia, HWC was paid $10,000 per month without submitting
deliverables to the designated Los Alamos Subcontract Technical Representative (STR). This
Los Alamos official was responsible for technical and performance oversight during execution of
the agreement to include deliverables, submittals and execution of the work carried out by HWC.
Our examination revealed that this official lacked the information necessary to support the
approval of payments to HWC.

In fact, despite task order requirements to do so, none of the 19 invoices submitted by HWC
contained sufficient detail as to the time expended and nature of the actual services provided as
required by the FAR. Notably, the agreement provided, in pertinent part, that:

     The Subcontractor may submit monthly billings for the services performed. A breakdown
     of the specific activities performed for [Los Alamos] must be included on or with each
     invoice. [Los Alamos] shall pay the Subcontractor, upon submission of acceptable
     invoices or vouchers, the prices stipulated in this subcontract for work delivered or
     rendered, less any deductions provided in this subcontract.

The invoices, however, lacked a breakdown of the specific activities performed for Los Alamos
by HWC. For example, a typical invoice would include language such as "Consulting services
8/1/2010 through 8/31/2010 - $10,000," without any further evidence of the nature and scope of
the service furnished. The only breakdown of the specific activities on any of the invoices was
for travel-related expenses.

It was clear that the task order requirement related to invoicing was not enforced. The STR told
us that in the first 2 or 3 months of the agreement there was a lot of dialogue with HWC
regarding hours, but that this discipline was not maintained for the rest of the invoices. The STR
also told us that the invoices were approved without the required detail. The STR was not able
to provide evidence of deliverables or details on invoices, and our review confirmed that the
contract file did not contain information on deliverables.

At our request, Los Alamos conducted a search to identify any information that may have
supported whatever work was performed by HWC each month. Los Alamos acknowledged that
there were no specific deliverables, but indicated that HWC did provide consulting services on a
wide variety of issues. The Los Alamos search resulted in the collection of records, primarily e-
mail correspondence, that according to Los Alamos "…demonstrate in part the services
provided." Los Alamos noted that, "While time records were not maintained by [HWC], the
records demonstrate some level of activity in every month of the task order." However, as with
Sandia, this information was, in our judgment, insufficient to support the basic FAR
requirements and the payments made to HWC.




Page 5                                                                         Details of Finding
Problems with the management of the HWC agreement occurred, in part, because of the failure
of the STR to properly carry out assigned duties. Specifically, the STR did not require that
HWC provide deliverables as evidence of the nature and scope of the service furnished. The
STR told us that during the period of performance there was no expectation that deliverables
would be provided. The STR also told us that the interactions with HWC were more about
relationships and trust, and therefore, they relied on the principal's reputation. The STR
acknowledged that payments were authorized without requesting the required deliverables. The
STR said that, in hindsight, Los Alamos probably should have at least requested monthly reports
from HWC. In addition, the STR acknowledged the requirements of the task order for a
breakdown of the specific activities performed for Los Alamos as well as responsibility for
reviewing the invoices prior to authorizing payments. The STR said that the invoices were
approved without the required detail.

The failure of Los Alamos officials to adequately manage the HWC consulting task is
particularly disturbing in light of information we uncovered related to prior knowledge regarding
potential problems with the agreement. In particular, we found that a senior Los Alamos
management official learned of a number of issues and risks with the HWC agreement as early as
March 2009. That official was advised that the consulting agreement was risky because it
contained a vague statement of work, that the retainer agreement was not recognized in the Los
Alamos procurement system, there was inadequate data to justify that the price for the services
was fair and reasonable, and there was a lack of specificity of level of effort required. The
official was also advised that because of these issues, there was potential for disapproval of the
agreement by Federal officials, disallowance of costs incurred, and adverse publicity. That
official told us that he was unaware of what action had been taken to address these concerns.

As a result of the weaknesses identified at Los Alamos, the evidence of the nature and scope of
the services furnished is significantly lacking and, thus, we question the costs paid to HWC
under the Los Alamos task order. As such, we recommended that a determination be made as to
whether the fees paid to HWC by Los Alamos are allowable per the requirements of the FAR
and the Management and Operating contract.

             The Nevada National Security Site and Oak Ridge National Laboratory

We also identified similar concerns at the Nevada National Security Site (Nevada) and Oak
Ridge National Laboratory (Oak Ridge). Specifically, we determined that between July 2010
and December 2011, HWC was paid approximately $30,000 without the evidence of deliverables
and detailed invoices necessary to support the allowability of those payments.

The Nevada consulting agreement was issued on April 4, 2010, and ended on February 28, 2011.
The statement of work required HWC to provide advisory services on multiple topics for the
President of National Security Technologies, LLC, the Management and Operating contractor.
The agreement identified a requirement for deliverables, defining deliverables as trip reports,
other reports, and written advice. However, the individual tasks stated that the deliverables
would consist of "verbal updates" as deemed necessary by the Nevada Director,




Page 6                                                                        Details of Finding
Homeland Security and Defense Applications, or the National Security Technologies, LLC,
President. In response to our request for deliverables at Nevada, we were told that no
deliverables could be located or identified for this agreement. Also, our review of the agreement
found that it did not contain the FAR requirement that invoices or billings submitted by HWC
include sufficient detail as to the time expended and nature of the actual services provided.

In addition, at Oak Ridge, Firm-Fixed-Price consulting agreements were awarded to an
independent subcontractor, HWC, requiring advisory services to the Global Security Directorate
at Oak Ridge. This subcontractor was required to participate as a member of the Strategic
Advisory Group, which provided insight on future directions and requirements for sponsoring
agencies. The subcontractor was paid a flat rate of $2,500 for attendance at each of the three
meetings. In response to an Office of Inspector General request for deliverables at Oak Ridge,
we were told that there were no deliverables or other written products generated as a result of
these agreements. As with Nevada, the agreements did not contain the FAR requirement that
invoices or billings submitted by the consultant include sufficient detail as to the time expended
and nature of the actual services provided.

                                           Duplication

We found that available documentation regarding deliverables and invoices was insufficient to
make a determination on whether there was overlap between the services provided and work
products produced by HWC on consulting agreements at Sandia, Los Alamos, Nevada and Oak
Ridge.

The primary users of the services of HWC were Los Alamos and Sandia. In fact, we determined
that the services provided by HWC at these two Laboratories accounted for more than 90 percent
of the approximately $450,000 in fees paid to HWC. When Los Alamos requested to enter into a
separate consultant agreement with HWC, the request was denied by the Los Alamos Field
Office Contracting Officer. We noted that one of the concerns raised by the Los Alamos Field
Office was that the Government could be at risk of making duplicate payments to HWC for the
same services at both Los Alamos and Sandia. To address this concern, Los Alamos was
directed to use Sandia's Purchase Agreement that was already in place for the services of HWC.
In addition, Los Alamos was authorized to issue task orders against the Sandia Contract Purchase
Agreement. In a July 1, 2009, memorandum to Los Alamos, the Los Alamos Field Office
Contracting Officer, per a request from Sandia, directed Los Alamos to insert a requirement in
the agreement to avoid duplication of effort. Specifically, the following language was to be
inserted into the Los Alamos task order:

    By accepting this order the contractor acknowledges that the work performed hereunder
    for [Los Alamos] is wholly separate from and not duplicative of work being performed
    for [Sandia].




Page 7                                                                         Details of Finding
However, while the language was inserted into the task order, Los Alamos' use of Sandia's
Purchase Agreement did not include a process to avoid duplication of effort. Specifically,
Sandia was unaware of the specific services HWC provided to Los Alamos. The Los Alamos
STR assumed that Sandia would be aware of the work HWC was performing for Los Alamos in
order to avoid any possibility of duplication. The STR was surprised to learn that the Los
Alamos task order was not issued through Sandia, and we found that the Los Alamos task order
was issued separate and apart from Sandia. A Federal contracting official also confirmed that
Sandia was not aware of the specific tasks HWC was performing at Los Alamos.

In addition, we were not able to identify any Department or contractor internal process whereby
the four Department contractor-operated sites would have been aware that other NNSA sites had
awarded consulting agreements to HWC, LLC, and that such agreements were running
concurrently, in order to identify and avoid the possibility of duplication of services and work
products provided. As a result of the weaknesses associated with deliverables,
invoices and the implementation of the agreement between Los Alamos and HWC, there was no
practical way for these Laboratories and/or the Department to assure themselves that there were
no redundant payments for the same contractor services.

                                       Prohibited Activities

During the course of our inspection, it became clear that Department officials were concerned
that the tasks undertaken as part of the HWC engagements could violate, or could be perceived
as violating, contractual prohibitions relating to business development. We noted one of the
most direct manifestations of this concern in a March 8, 2010, memorandum from NNSA's
Sandia Field Office Manager to the Sandia Executive Vice President. This memorandum
discussed issues with Sandia's request for approval to extend the period of performance for an
existing agreement with HWC.

Specifically, because of concerns with the sole-source justifications, the Sandia Field Office
Manager returned the request without action. The manager warned that an inference could be
drawn that the services of HWC would be used for the purposes of developing new business for
Sandia in the intelligence and cyber arenas. The sole-source justification cited, in part, the need
for " . . . high-level connections and critical engagement with key individuals." In addition, in
the same memorandum, the Field Office Manager stated that the proposed extension to the
consultant agreement suggests that HWC would be providing advice and making potentially
prohibited contacts on behalf of Sandia. Subsequently, after some modifications to the language
in the sole source justification to eliminate the concern raised in the March 8 memorandum, the
extension of the contractual relationship was approved by Federal officials.

With regard to this issue, both the Sandia Conract Purchase Agreement and the Los Alamos task
order stated that HWC shall not engage in any activity specifically related to obtaining, retaining,
or facilitating business or business opportunities for the respective National Laboratories.
Despite these prohibitions, our examination of relevant documentation at both Sandia and Los
Alamos tend to indicate such activities did occur. While certainly not a complete




Page 8                                                                          Details of Finding
record, there were aspects of this documentation that raised concerns as to whether the
prohibitions regarding business development had been violated. At Los Alamos, HWC arranged
meetings with and/or site visits by senior Federal officials who had the ability to impact both
funding and future work at the Laboratory in the intelligence arena. In fact, a senior contractor
official at Los Alamos, also designated as the Los Alamos STR for the HWC agreement, told us
in an interview that the HWC principal approached the then Laboratory Director and offered the
services of the company. The same Los Alamos official also acknowledged that Los Alamos had
made a strategic decision to increase the market share of work-for-others involving the
Department of Defense and the Intelligence Community and that the then Laboratory Director
believed the consultant's background could help with this initiative.

The content of the email communications provided to us and the acknowledgement by Los
Alamos regarding business development reflect elements that directly coincide with the very
concerns raised by the Sandia Field Office Manager in March 2010. In short, one could
understandably draw the inference that the tasking of HWC exceeded norms acceptable under
the FAR and the terms of the agreements with Sandia and Los Alamos.

Certain matters in this area are under further review by the Office of Inspector General.
However, we think it would be prudent for the Department to reinforce existing policy to prevent
even the perception of the use of Federal funds for unauthorized purposes.

RECOMMENDATIONS

To address the weaknesses outlined in our report, we recommend that the Director, Office of
Management:
   1. Issue a Policy Flash on the intent and implementation of FAR 31.205-33, Professional
      and consultant service costs, with a particular focus on the requirements for deliverables
      and details on invoices; and

   2. Issue policy to improve awareness of the prohibition against lobbying and other
      unallowable activities by contractors (FAR 31.205-22 (a) (6)).
We recommend that the Department Contracting Officers at Sandia, Los Alamos, Nevada and
Oak Ridge:
   3. Determine the allowability of fees paid to HWC both in terms of FAR 31.205-33 and
      FAR 31.205-22, and recover any costs determined to be unallowable.

Finally, we recommend that appropriate Fee Determination Officials:

   4. Determine whether adjustments to previously awarded performance fees are appropriate
      to address the consulting agreement administration and management issues we observed
      relative to the HWC agreements.




Page 9                                                                      Recommendations
MANAGEMENT COMMENTS

Although it provided a number of suggested technical clarifications, management generally
agreed with the report's findings and recommendations and indicated it was in the process of
implementing or completing corrective actions. Management indicated that the Department has
already recovered $442,877 of the approximately $464,203 paid to HWC, and is reviewing the
allowability of the additional amounts. Management also indicated that the Department will
issue policy and guidance reminding Heads of Contracting Activities and Contracting Officers of
the applicability of FAR 31.205-33, Professional and consultant service costs. In addition,
management has issued guidance to Heads of Contracting Activities and contracting personnel
that the use of appropriated funds to lobby Congress or influence certain Federal contracting and
financial transactions is strictly prohibited. Finally, management has agreed to look into whether
the contractors engaged in any conduct that would support a decision to revoke the completed
award fee determinations and authorize revising the fees retroactively. Management comments
have been provided in their entirety in Appendix 2.

INSPECTOR COMMENTS

Management's comments and planned corrective actions are generally responsive to our report
findings and recommendations. However, with regard to management's response to
Recommendation 4, we would like to note that DEAR 970.5242-1, Penalties for unallowable
costs, states that if during the review of a submission for settlement of costs incurred, the
Contracting Officer determines that the submission contains an expressly unallowable cost or a
cost determined to be unallowable, the Contracting Officer shall assess a penalty. During its
review of whether to revoke previously awarded award fee, we urge Federal officials to consider
the penalty provisions relating to unallowable costs claimed by contractors and determine
whether these penalties should be applied in this case.




Page 10                                               Management and Inspector Comments
Appendix 1

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The National Nuclear Security Administration (NNSA) requested that we determine whether:
(1) work products (deliverables) were produced in return for monthly payments to Heather
Wilson and Company, LLC (HWC) of $10,000; (2) invoices included itemized charges, as
required by the agreement; (3) there was overlap between the services provided and work
products produced by HWC on consulting agreements awarded by Sandia National Laboratories
(Sandia), Los Alamos National Laboratory (Los Alamos), Nevada National Security Site
(Nevada) and Oak Ridge National Laboratory (Oak Ridge); and (4) the NNSA Contracting
Officer was subjected to "pressure" when Los Alamos National Security, LLC (Los Alamos), the
Management and Operating contractor for Los Alamos, requested authorization to enter into an
agreement with HWC.

SCOPE

We conducted our inspection fieldwork from September 2012 to March 2013, at Sandia in
Albuquerque, New Mexico; Los Alamos in Los Alamos, New Mexico; Nevada in Mercury,
Nevada; and Oak Ridge in Oak Ridge, Tennessee.

METHODOLOGY

To accomplish the inspection objective, we:

   •   Reviewed Federal Acquisition Regulation (FAR) 31.205-33, Professional and consultant
       service costs;

    • Reviewed site policies and procedures related to the administration of contracts after
      award;

   •   Collected and reviewed appropriate NNSA documentation authorizing Los Alamos to
       enter into an agreement with HWC;

   •   Collected and reviewed appropriate contract documentation, including task orders,
       statements of work, and contractor invoices; and,

   •   Interviewed Sandia, Los Alamos, Nevada and Oak Ridge officials.

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency, Quality Standards for Inspection and Evaluation, January 2012. Those
standards require that we plan and perform the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our inspection objective.




Page 11                                                   Objective, Scope and Methodology
Appendix 1 (continued)

We believe the evidence obtained provides a reasonable basis for our findings and conclusions
based on our inspection objective. The inspection included tests of controls and compliance with
laws and regulations to the extent necessary to satisfy the inspection objective. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our inspection. Also, we relied on computer-processed data to
some extent to satisfy our objective. We confirmed the validity of such data, as appropriate, by
conducting interviews and reviewing source documents.

An exit conference was waived by NNSA, the Office of Science and the Office of Management.




Page 12                                                    Objective, Scope and Methodology
Appendix 2

             MANAGEMENT COMMENTS




Page 13                            Management Comments
Appendix 2 (continued)




Page 14                  Management Comments
                                                                    IG Report No. DOE/IG-0889



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit or inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report, which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
